   Management Information Report - Opportunities to Improve the RRB’s

                Performance and Accountability Report

                 Audit Report No. 04-03, May 17, 2004 


INTRODUCTION

This management information report presents the results of the Office of
Inspector General’s (OIG) assessment of the identification of opportunities to
improve the preparation, form and content of the Railroad Retirement Board’s
(RRB) Performance and Accountability Report (P&AR).

Background

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and
their families under the Railroad Retirement Act and the Railroad Unemployment
Insurance Act. These programs provide income protection during old age and in
the event of disability, death or temporary unemployment and sickness.

The Accountability of Tax Dollars Act of 2002, Public Law 107-289, requires the
RRB to prepare an annual P&AR that presents the agency’s audited financial
statements and other financial, performance and management information.
Under that law, financial reporting requirements, previously imposed only on the
major agencies subject to the Chief Financial Officers Act of 1990 (CFO Act),
were formally extended to most Federal agencies.

The Bureau of Fiscal Operations (BFO) began preparing financial statements for
use within the agency in 1986. The RRB published audited financial statements
for the first time for the fiscal year ended September 30, 1993, the same fiscal
year for which major agencies were required to submit audited financial
statements under the CFO Act.

A P&AR consists of three sections: Management’s Discussion and Analysis; a
Performance Section; and a Financial Section which includes the financial
statements, accompanying notes, required supplementary information, and the
auditor’s opinion. Only the financial statements and the accompanying notes are
subject to audit. All other information accompanying the financial statements is
subject to limited procedures designed to assess the adequacy of required
disclosures and the consistency of unaudited information with the financial
statements on which the auditors are offering an opinion.

The requirement to submit audited financial statements within the new format has
increased the amount of information accompanying the financial statements. As
the amount of accompanying information expands, the effort required to ensure
consistency also increases. Accordingly, the form, content and preparation



                                        1

process impacts the timing and nature of the audit tests that support the auditor’s
opinion.

Office of Management and Budget (OMB) Bulletin 01-09, “Form and Content of
Agency Financial Statements,” mandates the content of Federal financial
statements. The Federal Accounting Standards Advisory Board (FASAB) is the
authoritative standards-setting body whose Statements on Federal Financial
Accounting Standards lead the hierarchy of Federal accounting standards.
FASAB’s Accounting and Auditing Policy Committee has authority to provide
guidance related to existing accounting standards.

For purposes of this project, an “improvement” refers to any change in form,
content or process that will enhance the ability of the agency to produce a P&AR
that can be published within required timeframes and conforms to established
guidance. We have also considered the impact of form and content on the
readability and informative value of the document within the context of the
objectives of Federal financial reporting.

This project, which was included in the OIG’s Office of Audit Fiscal Year (FY)
2004 Work Plan, supports the RRB in meeting its strategic objective to ensure
that trust fund assets are reported appropriately.

Objective, Scope and Methodology

The objective of this project was to identify opportunities to improve the
preparation, form or content of the RRB’s P&AR. The scope of this project was
limited to those sections of that report that are not subject to a detailed evaluation
of form and content. The scope specifically excludes the basic financial
statements which are evaluated for both form and content annually and the
Statement of Social insurance, a required disclosure, which the OIG evaluated
during FY 2003.1

To achieve our objective, we evaluated the RRB’s FY 2003 P&AR as a means of
identifying areas that could be improved in future reports. We considered
applicable criteria as well as more subjective editorial issues that include report
organization, manner of presentation and redundancy. We also read the P&ARs
of other Federal agencies to enhance our understanding of how existing
requirements have been interpreted and applied by outside organizations.

Our work was conducted during February and March 2004 at RRB headquarters
in Chicago.



1
 OIG report #03-07, “Compliance with SFFAS #17: Accounting for Social Insurance,” dated May
22, 2003.



                                             2

                              RESULTS OF REVIEW

The RRB’s FY 2003 P&AR was the result of an evolution from the simple stand-
alone financial statements first published in 1986, to an amalgam of financial,
performance and management information in a single integrated document. With
the passage of time, the RRB’s financial reporting has grown to meet expanding
requirements. The change to the P&AR format is an opportunity for the agency
to aggressively edit its report to ensure a concise, logically organized public
presentation by minimizing redundancy and eliminating extraneous elements.

In this report, we recommend that BFO review and edit the various sections of
the P&AR to eliminate redundancy, include only required information and ensure
compliance with applicable guidance. We have also recommended that BFO
facilitate the audit process by providing some documentation earlier in the audit
process.

The OIG believes that the recommended changes will result in a more effective
presentation and a more efficient audit process. In their response, BFO noted
that FY 2003 represented the agency’s first effort at implementing the P&AR
format which is not required until FY 2004; they had planned to streamline the
presentation for FY 2004. BFO has established November 15, 2004 as the
target date for implementation of the OIG’s recommendations.

The details of our observations and specific recommendations for improvement
follow. The full text of management’s response is presented as an appendix to
this report.

Notes to the Financial Statements

The FY 2003 financial statements were accompanied by 30 notes. The notes to
the financial statements are subject to audit in conjunction with the basic financial
statements. The RRB’s notes include excessive technical detail which was more
appropriate before the financial statements became widely circulated outside of
the agency.

For example, the discussion of significant accounting policies, which includes
basis of presentation, reporting entity, budgets and budgetary accounting, and
basis of accounting, is very long. The note includes a high level of detail about
individual trust funds that originally supported the fund-by-fund financial reporting
published in supplementary schedules. Now that the fund-by-fund schedules are
no longer published, the details of agency fund accounting are no longer
necessary.




                                          3

We have also observed that some of the notes could be more concise, combined
with other notes, or eliminated entirely. For example,
   •	 “Liabilities Not Covered by Budgetary Resources” includes information not
      required by the current standards;
   •	 transfers to and from the National Railroad Retirement Investment Trust
      are discussed in separate notes which could be combined in a single
      disclosure; and
   •	 notes detailing appropriations received, intragovernmental payables and
      transfers in/out present information that may not be required by current
      standards or that could be presented more effectively by combining
      multiple notes into a single disclosure.

In the past, auditors reviewed the notes to the financial statements in conjunction
with the financial statements and requested additional supporting documentation
as necessary. The audit process would be improved by advance preparation of
supporting documentation for each note, including the specific requirement to
which the note responds.

Recommendations

We recommend that BFO:

   1. 	 review the notes to the financial statements to ensure that note disclosure
        is limited to information that is specifically required by applicable guidance,
        or has been included by mutual agreement between BFO and the OIG;
        and
   2. 	 prepare, and submit for audit, detailed documentation for each note
        including figures, legal citations and events.

Management’s Response

BFO has established a target date of November 15, 2004, for implementation of
the OIG’s recommendations.

Management’s Discussion and Analysis

Management’s Discussion and Analysis includes excessive detail about some
aspects of agency operations and may duplicate information presented
elsewhere in the P&AR. Some examples follow.

   •	 The improper payments discussion includes an excessive level of detail
      about the computational method used to determine the applicability of the
      Improper Payments Act.




                                          4

   •	 The efficiency of operations section includes a breakdown of program
      costs that does not appear to meet any specific requirement.
   •	 The performance data presented is redundant of the information in the
      Performance Section of the P&AR. The double presentation increases the
      risk of contradiction within the document and may mislead a reader by
      simply offering too much data in different formats.
   •	 The discussion of significant events is dominated by graphic displays at
      the expense of more meaningful verbal explanations.

Recommendations

We recommend that BFO review and revise Management’s Discussion and
Analysis to:
   3. 	 develop a more concise presentation and ensure that the information
        presented does not unnecessarily duplicate information presented in other
        sections of the P&AR such as the notes to the financial statements, the
        Statement of Social Insurance and the related social insurance
        disclosures; and
   4. 	 ensure that the information presented is not excessively detailed and does
        not exceed the required scope of the document.

Management’s Response

BFO has established a target date of November 15, 2004, for implementation of
the OIG’s recommendations.

Preparation of Performance Data for Review

OMB has established November 15, 2004, as the deadline for submission of
agency P&AR. The RRB’s historic desire to present information about
performance during the most recent fiscal year will hamper agency efforts to
prepare its FY 2004 P&AR within the timeframe established by OMB.

Although not subject to audit, performance data is subject to both control and
substantive testing. Component bureaus submitted performance data to BFO for
inclusion in the P&AR in October 2003. The OIG believes that the submission of
performance data needs to be accelerated in order to permit sufficient time for
completion of required testing.

Recommendation

We recommend that BFO:

   5. coordinate with responsible program bureaus to accelerate submission of
      performance information to facilitate a timely publication process.


                                        5

Management’s Response

BFO has established a target date of November 15, 2004, for implementation of
the OIG’s recommendations.


Additional Schedules and Discussions Need to be Evaluated Against
Requirements

The RRB’s FY 2003 P&AR included some material that should be reviewed to
ensure that only required information has been presented and to determine the
most appropriate editorial placement for that information.

Schedule of Salaries and Expenses

The RRB has included, as required supplementary information, a schedule of
salaries and expenses by budget object code. This detailed disclosure has been
included in the agency’s financial reports for many years and presents
interesting, useful information. However, it is not required by either OMB or
FASAB.

Other Accompanying Information

The RRB has reported on several subjects in this section, none of which respond
to an OMB requirement. For example, this section includes the RRB’s discussion
of the President’s Management Agenda. OMB guidance places the discussion of
the President’s Management Agenda in Management’s Discussion and Analysis.
While the agency is probably not prohibited from discussing subjects that are not
specifically required, the presentation should be carefully policed to ensure that
the presentation only includes subject matter that could not be more properly
addressed elsewhere in the report.

Summary of Financial Highlights

The Summary of Financial Highlights introduces the RRB’s P&AR. This section
is not required by OMB and includes a high level of detail which is presented
elsewhere in the P&AR.

Again, an extra section is not prohibited; however, this section includes a level of
detail that goes beyond the description of “highlight.” The description of the basis
of accounting and the snapshots of the agency’s net position, financing sources
and benefit payments duplicate, in considerable detail, information presented in
Management’s Discussion and Analysis as well as the notes to the financial
statements.




                                         6

Recommendations

We recommend that BFO evaluate:

   6. 	 the reasons for presenting the schedule of salaries and expenses and
        consider dropping it from the P&AR;
   7. 	 the Other Accompanying Information section of the P&AR to ensure that
        the information presented is not duplicated in other sections of the report;
        and
   8. 	 the introductory “Summary of Financial Highlights” of the P&AR to ensure
        that the information presented is not redundant of other sections of the
        report.

Management’s Response

BFO has established a target date of November 15, 2004, for implementation of
the OIG’s recommendations.




                                         7

